     OFFICE OF
INSPECTOR GENERAL




    CMS Oversight of
  Cost-Avoidance Waivers




                 February 2004
                 OEI-03-00-00031
                 OFFICE OF INSPECTOR GENERAL


 The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
 is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
 the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
 through a nationwide network of audits, investigations, and inspections conducted by the following
 operating components:


 Office of Audit Services

 The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
 audits with its own audit resources or by overseeing audit work done by others. Audits examine the
 performance of HHS programs and/or its grantees and contractors in carrying out their respective
 responsibilities and are intended to provide independent assessments of HHS programs and operations in
 order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
 Department.


 Office of Evaluation and Inspections

 The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
 evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
 public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
 and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


 Office of Investigations

 The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
 allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
 providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
 monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
 prosecute fraud and patient abuse in the Medicaid program.


 Office of Counsel to the Inspector General


The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                   EXECUTIVE                           SUMMARY


OBJECTIVE

    This inspection reviewed the Centers for Medicare & Medicaid Services’s (CMS’s) oversight
    of the cost-avoidance waiver process.


BACKGROUND

    Millions of Medicaid beneficiaries have additional health insurance through third-party sources
    such as Medicare or private health insurance. Because Medicaid is the payer of last resort,
    these third parties are liable for many claims submitted to Medicaid. When they receive claims
    that have a liable third-party payer, State Medicaid agencies can: (1) cost avoid, i.e., return the
    claim to the provider so that the provider can bill the liable third party, or (2) pay and chase, i.e.,
    pay the provider’s claim and then seek recovery from the liable third party. States report cost-
    avoidance and pay-and-chase data to CMS as part of their CMS-64 report.

    States are required to use cost avoidance for most services unless the State has a waiver
    allowing it to pay and chase. According to 42 CFR § 433.138, CMS regional offices may grant
    these waivers when States demonstrate that pay and chase is as cost-effective as cost
    avoidance. The State Medicaid Manual requires States to renew their cost-avoidance waivers
    every 3 years. The manual does not have any requirements addressing the retention of waiver
    documentation by the CMS regional offices.

    We reviewed the waiver process at all 10 CMS regional offices. We requested information from
    the regional staff about their offices’ policies and procedures regarding the waiver review
    process, the steps they take when reviewing waiver requests, and the criteria they use to
    examine cost-effectiveness. We collected information and documentation from the regional
    offices about waivers currently held by States as well as waiver requests that had been denied.
    In addition, we surveyed Medicaid agencies in 50 States and the District of Columbia on their
    third-party liability processes and policies. We requested financial data, cost-avoidance waiver
    information, and a description of any problems States encounter when attempting to recover
    money from third parties. Forty-eight States responded to our survey.




    CMS Oversight of Waivers                       i                                          OEI-03-00-00031
FINDINGS

CMS and States disagreed about whether certain States were operating under
approved waivers

      Fourteen States and their respective CMS regional offices provided contradictory responses as
      to whether these States had been approved for cost-avoidance waivers. Four States reported
      that they had cost-avoidance waivers for certain services, but their regional offices indicated that
      they did not. In addition, 10 States reported that they did not have waivers for specific service
      types, yet the CMS regional office reported they did. Some of the inconsistencies over cost-
      avoidance waivers may stem from the lack of documentation maintained by certain States and
      CMS regional offices.

CMS approved cost-avoidance waiver requests that did not address the criteria for
proving cost-effectiveness

      Federal regulations require that for a waiver request to be approved, States must show that the
      pay-and-chase method is as cost-effective as the cost-avoidance method. The State Medicaid
      Manual provides several examples of factors that may be used to determine cost-effectiveness,
      including average-cost-per- claim, denial rates of claims, administrative costs, and
      equipment/computer costs. However, our review of 51 recent waiver requests (submitted by 18
      States from 7 regions) found that 6 of the 7 CMS regional offices approved waivers that did not
      address this criteria. In all, CMS approved 46 of the 51 waiver requests that we reviewed. For
      20 of these requests, States did not compare the cost-effectiveness of pay and chase to that of
      cost avoidance. CMS denied 5 of the 51 waiver requests, and 1 of the denials was due to a
      failure to prove cost-effectiveness. In addition, unlike other regional offices, one CMS regional
      office is not requiring States to renew cost-avoidance waivers every 3 years as required by the
      State Medicaid Manual. Therefore, the data used to justify cost-avoidance waivers in this
      region could potentially be years out-of-date.

CMS does not require States to report the data necessary to determine the cost-
effectiveness of cost-avoidance waivers

      While CMS requires the reporting of actual recovery amounts on the CMS-64, it does not
      require States to track the amounts they attempted to recover or the amounts validly denied by
      third parties. Keeping an accurate account of this information is necessary in order to evaluate
      the cost-effectiveness of both pay-and-chase and cost-avoidance efforts. We asked States to
      identify the amount they attempted to recover, the amount actually recovered, and the amount
      validly denied by third parties in 2000. Of the 34 States that had cost-avoidance waivers
      (according to CMS), 17 did not report attempted recoveries or validly denied figures to us.
      Without this data, we believe it would be difficult for CMS to make informed decisions
      concerning the cost-effectiveness of waivers.

      Another 17 States, however, did provide the requested data to us. Figures reported by 14 of
      the 17 States that provided data showed $307 million in outstanding payments


      CMS Oversight of Waivers                     ii                                         OEI-03-00-00031
      potentially owed by liable third parties in Federal fiscal year 2000. This money has been paid
      out by the Medicaid program, yet the dollars associated with these claims have not been
      returned to the Federal government and the States.

RECOMMENDATIONS

      Our findings show that CMS is not exercising effective oversight of the cost-avoidance waiver
      process. Because of the significant program dollars potentially at risk, we believe that proper
      oversight is critical.

      We understand that waivers provide Medicaid agencies with the flexibility to design effective
      programs for their individual States. We also recognize that CMS has taken steps to review
      their guidance of the waiver process. However, based on our findings, we believe that CMS
      needs to provide more effective oversight of the cost-avoidance waiver process.

We recommend that:

CMS improve its oversight of the cost-avoidance waiver process by:

      •	       Approving only waivers that meet the criteria for cost-effectiveness set forth by Federal
               regulation

      •	       Ensuring that States abide by the State Medicaid Manual’s requirement that waivers be
               renewed every 3 years

      •        Requiring regional offices to retain proper documentation for all waivers

CMS require States to track the amount of money they attempt to recover from
third parties and the amount that is validly denied to assist in evaluating the cost-
effectiveness of both pay-and-chase and cost-avoidance efforts


Agency Comments

      CMS concurs with our recommendation that they should improve its oversight of the cost-
      avoidance waiver process. CMS also concurs with our recommendation that States should
      track the amount they attempt to recover from third parties and the amount that is validly denied.
      However, CMS added that requiring States to track these amounts would produce little
      additional information of value, while at the same time taking away needed resources regarding
      the implementation of Health Insurance Portability and Accounting Act (HIPAA) requirements.
      With the implementation of HIPAA electronic billing standards, CMS believes providers will be
      able to bill liable third parties more easily, thereby reducing Medicaid third-party recovery
      activities. CMS says that they will reassess the need to track the amount States attempt to
      recover from third parties and the amount that is validly denied within a few years of HIPAA
      implementation.


      CMS Oversight of Waivers                     iii                                       OEI-03-00-00031
     In addition, CMS believes that our potential outstanding debt calculation may be significantly less
     than what is stated in our report. CMS noted that it is difficult to actually quantify the dollars at
     risk since there are many factors that affect this calculation. For instance, States “cast a wide net
     when seeking recoveries” because they do not always know if individuals have third-party
     insurance coverage nor do they know the extent of coverage. As a result, some third parties are
     not liable for the claims or liable for only a portion of the claim. In addition, States often do not
     receive responses from third parties regarding pursued claims.

OIG Response

     In terms of our potential outstanding debt calculation, we simply based our calculation on figures
     reported to us by States. We recognize the fact that States may be pursuing dollars that in the
     end are not owed by third parties. For this reason, we use the phrase “as much as” when
     referring to the potential outstanding debt estimate. Both the States and CMS would have a
     more accurate picture of the amount owed to the States if CMS were to implement our
     recommendation that States track the amount they attempt to recover from third parties and the
     amount that is validly denied. These data would assist CMS in determining the cost-
     effectiveness of cost-avoidance waivers. Furthermore, we believe that non-responses from third
     parties should not be a factor when calculating how much money is owed to the State. The
     State’s entitlement to recovery does not change if a liable third party has not responded to the
     State’s request for recovery.




     CMS Oversight of Waivers                     iv                                         OEI-03-00-00031
                           TABLE                        OF             CONTENTS




                                                                                                                               PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


     CMS and States disagreed about whether a State had a waiver . . . . . . . . . . . . . . . . . . . . . . . . . . 5


     CMS approved waivers that did not address criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


     CMS does not require States to report necessary data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


APPENDICES


     A. States with Cost-Avoidance Waivers as of December 2001 . . . . . . . . . . . . . . . . . . . . . . . . 11


     B. Centers for Medicare & Medicaid Services’s Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16





          CMS Oversight of Waivers                                 v                                                    OEI-03-00-00031
                                 INTRODUCTION


OBJECTIVE

      This inspection reviewed the Centers for Medicare & Medicaid Services’s (CMS’s) oversight
      of the cost-avoidance waiver process.


BACKGROUND

The Medicaid Program

      Medicaid is a jointly-funded Federal-State health insurance program for certain low income and
      medically needy individuals and families. Individual States establish eligibility requirements,
      benefits packages, and payment rates for Medicaid under broad Federal standards set by CMS.
      In 2001, the Medicaid program served 42 million beneficiaries at a cost of $217 billion.

Beneficiaries with Third-Party Insurance

      Millions of Medicaid beneficiaries have additional health insurance through third-party sources
      such as Medicare, State worker’s compensation, or private health insurance. When a
      beneficiary has coverage under a third party, the Medicaid program is required by law to be the
      payer of last resort. Federal regulations (42 CFR § 433.145) state that if Medicaid paid for a
      service that is covered by a third party, Medicaid has a right to recover the payment from the
      third party.

      According to 42 CFR § 433.138, State Medicaid agencies must take reasonable measures to
      determine the liability of third-party payers in order to avoid paying claims inappropriately.
      Reasonable measures include: (1) collecting insurance information from prospective Medicaid
      beneficiaries; (2) conducting data exchanges with Social Security Administration wage and
      earnings files; and (3) conducting data exchanges with State files that contain information on
      wages, welfare enrollment, motor vehicle accidents, and workers’ compensation. Any of these
      sources may indicate the existence of other health insurances.

Processing Claims with a Liable Third-Party Payer

      When State Medicaid agencies receive claims that may have a liable third-party payer, States
      can either: (1) cost avoid, i.e., return the claim to the provider so that the provider can bill the
      liable third party, or (2) pay and chase, i.e., pay the provider’s claim and then seek recovery
      from the liable third party. According to CMS data, Medicaid avoided paying almost $21 billion
      in claims in Federal fiscal year 2000, and collected another $683 million from liable third parties
      after originally paying the claims.


      CMS Oversight of Waivers                     1                                         OEI-03-00-00031
      States are required to use the cost-avoidance method unless the claim received is for preventive
      pediatric services, prenatal care, or services provided through a parent’s court-ordered child
      support obligation. However, States may apply to CMS for a waiver if they wish to pay and
      chase other types of claims. According to 42 CFR § 433.139(c), Medicaid agencies may
      sometimes pay and chase claims without a waiver if they cannot determine the existence of third-
      party coverage at the time the claim was received.

Granting of Cost-Avoidance Waivers by CMS

      States request cost-avoidance waivers from the CMS regional office serving their geographic
      area. According to 42 CFR § 433.138, a CMS regional office may approve a State’s waiver
      request if the State demonstrates that the pay-and-chase method is as cost-effective as the cost-
      avoidance method. The State Medicaid Manual provides several examples of factors that may
      be used to determine cost-effectiveness, including average-cost-per- claim, denial rates of
      claims, administrative costs, and equipment/computer costs. Usually, a separate waiver request
      is submitted for each specific service type (e.g., pharmacy services). According to the State
      Medicaid Manual, States are required to renew their cost-avoidance waivers every 3 years.
      The manual does not have any requirements addressing the retention of waiver documentation
      by the CMS regional offices.

Reporting of Third-Party Liability Data

      States report third-party liability data to CMS as part of their Quarterly Medicaid Statement of
      Expenditures for the Medical Assistance Program (Form CMS-64). The CMS-64 report for
      each State is recorded in CMS’s Medicaid Budget and Expenditure System. States are
      required to provide both the total amount that was cost avoided and the total amount collected
      through pay and chase on their CMS-64 report. These amounts are reported as overall totals
      and are not subdivided by service type. States are not required to report the amount of money
      they attempted to recover or the amount that was validly denied by third parties on the CMS-
      64. “Validly denied” refers to claims where the third party was found not to be liable for the
      amounts that the State attempted to recover. According to CMS, the data from the CMS-64
      report is used to monitor and evaluate the effectiveness of States’ third-party liability activity.

Previous OIG Work

      A previous study conducted by the Office of Inspector General (OIG), Medicaid Recovery of
      Pharmacy Payments from Liable Third Parties (OEI-03-00-00030, August 2001), found
      that Medicaid was at risk of losing over 80 percent of the dollars it paid and chased for
      pharmacy claims. We recommended that CMS: (1) review States cost-avoidance waivers for
      pharmacy claims; (2) require States to track the amount they pay and chase for pharmacy
      claims; and (3) determine whether legislation is needed to assist States in recovering payments
      from liable third parties. CMS concurred with all but one of our recommendations. Specifically,
      in response to our recommendation on tracking pay-and-chase amounts, CMS concurred in
      theory, but wrote that, in the interest of State flexibility, it was reluctant to require States to
      collect this data.


      CMS Oversight of Waivers                     2                                          OEI-03-00-00031
Recent CMS Efforts to Review Waivers

     CMS has recently made a concerted effort to track States’ pay-and-chase activities.
     Specifically, on February 7, 2002, CMS central office sent a memorandum to all the regional
     offices on the subject of cost-avoidance waivers. The memorandum asked the regional offices
     to contact each State in their respective regions in order to identify: (1) any waivers that have
     been granted; (2) any pending waiver requests; and (3) situations where a State is using pay and
     chase without an approved waiver. According to the memorandum, once CMS central office
     obtains all the information requested from the regions, CMS will issue a follow-up memorandum
     that provides guidance on the waiver process. CMS has also conducted conference calls with
     third-party liability coordinators in some regions in an effort to develop potential guidelines and
     criteria for the review of waiver requests.



METHODOLOGY

State Medicaid Agency Data

     We sent a written request to the Medicaid directors at 51 State Medicaid agencies, including the
     District of Columbia, in November 2001. We asked the directors to distribute the survey to the
     staff best able to answer our questions. Representatives from 48 States responded to our
     request. The three States that did not respond were Michigan, New Jersey, and Rhode Island.
     In this report, we use the word “State” as a synonym for “State Medicaid agency.”

     We asked States to identify the cost-avoidance waivers they had been granted by CMS, to list
     any waivers that had been denied in the past 5 years, and to assess the cost-avoidance waiver
     review process. We requested that States provide documentation verifying the cost-avoidance
     waiver information reported to us. This documentation included waiver requests from States,
     approval and denial letters from CMS regional offices, and any additional correspondence
     between the States and CMS regional offices regarding cost-avoidance waivers. In addition,
     we requested that States identify any problems they encounter when trying to recover money
     from liable third parties.

     We also asked States to verify the accuracy of third-party liability data reported in the Medicaid
     Budget and Expenditure System. In November 2001, we accessed this system in order to
     obtain the amount each State cost-avoided and the amount each State recovered from third
     parties in Federal fiscal year 2000. If a State said that the amount originally reported in the
     Medicaid Budget and Expenditure System was not accurate, we asked them to provide a
     revised figure. We also asked States to report the amount they attempted to recover, the
     amount validly denied by third parties, and the amount unrecovered for Federal fiscal year 2000.

     For any State with waivers that reported each of these figures, we calculated the amount of
     money that was outstanding by adding the amount recovered to the amount validly




      CMS Oversight of Waivers                    3                                         OEI-03-00-00031
     denied, and then subtracting the total from the amount the State attempted to recover. For
     States that indicated the recovery amount originally reported on the CMS-64 was incorrect, we
     used revised figures for this calculation.

CMS Regional Office Data

     We reviewed the waiver process with staff from all 10 CMS regional offices. We requested
     information from regional staff about their offices’ policies and procedures regarding the waiver
     review process, the steps they take when reviewing waiver requests, and the criteria they use
     when determining cost-effectiveness. We also asked staff from CMS regional offices to assess
     the waiver review process. We collected information about the waivers currently held by States
     in each region, and about any cost-avoidance waiver requests that had been denied. A chart
     listing cost-avoidance waivers for each State is presented in Appendix A.

     Staff from OIG visited all but one CMS regional office to collect documentation verifying the
     cost-avoidance waiver information. This documentation consisted of waiver requests from
     States, approval and denial letters from CMS regional offices, and any additional
     correspondence between the States and CMS regional offices regarding cost-avoidance
     waivers. One CMS regional office mailed us documentation because we were unable to visit the
     office. Some regional offices were unable to provide documentation supporting the existence of
     all cost-avoidance waivers held by States in their region. We reviewed all recent State waiver
     requests (51) that were provided to us in order to determine if they met the criteria for approval
     described by Federal regulation. Neither the regulation nor the State Medicaid Manual
     provides specific instructions as to how States must meet the criteria, only that they must show
     that the pay-and-chase method is as cost-effective as the cost-avoidance method. Therefore,
     we considered any request that compared the cost of performing pay and chase to the cost of
     performing cost avoidance to have met the criteria.




     This study was conducted in accordance with the Quality Standards for Inspections issued by
     the President’s Council on Integrity and Efficiency.




      CMS Oversight of Waivers                   4                                         OEI-03-00-00031
                                     FINDINGS

CMS and States disagreed about whether certain States were
operating under approved waivers

      The regional offices identified 73 waivers currently held by 34 States. For 21 of the 34 States,
      the only waiver in place was for pharmacy services. Appendix A lists the waivers that were
      approved according to CMS regional offices.

Four States reported having cost-avoidance waivers when their respective CMS
regional offices indicated they did not

      Four States reported that they had cost-avoidance waivers for certain services, but their CMS
      regional offices indicated that these States did not. One of these States reported having a waiver
      for dental claims while its regional office indicated it did not. Another reported having a waiver
      for pharmacy claims and long-term care/home and community- based services for the disabled
      and elderly, while the regional office said it did not. Neither State provided any documentation
      supporting their position. However, documentation from the regional offices showed that the
      waivers claimed by these States had expired. For the other two States, one said it had a cost-
      avoidance waiver for mental health evaluations, and the second reported it had waivers for their
      “birth-to-three” program and their school disability program. In both instances, the respective
      regional offices said that they were not aware of these waivers. Neither the State nor the CMS
      regional offices were able to provide documentation supporting their positions.

Ten States reported not having waivers cited by their regional offices

      Ten States reported that they did not have waivers for the service types reported by their CMS
      regional office. For example, CMS said one State was operating under an approved waiver for
      pharmacy claims, but the State said that it did not have a pharmacy waiver. The 10 States were
      represented by 6 different regional offices. Out of the six regional offices, only one regional
      office was able to provide any documentation supporting the presence of cost-avoidance
      waivers. Table 1 below shows the cases where CMS regional offices and States differed as to
      the number of waivers held by the States.




      CMS Oversight of Waivers                    5                                         OEI-03-00-00031
        Table 1: Discrepancies in the Number of Waivers Reported by States and CMS
                                   Number of Waivers                          Number of Waivers
        State                       Reported by State                   Reported by CMS Regional Office

         AK                                7                                            6

         GA                                0                                            1

         ID                                0                                            2

         IL                                0                                            1

         KS                                0                                            4

         MN                                0                                            1

         MO                                7                                            6

         OH                                0                                            1

         OR                                1                                            6

         TN                                0                                            1

         TX                                1                                            2

         WI                                3                                            1

         WV                                0                                            1

         WY                                4                                            2
Source: OIG Survey of State Medicaid Agencies and OIG Interviews with CMS Regional Offices



Inconsistencies concerning the presence of cost-avoidance waivers may stem
from insufficient documentation

        Some of the inconsistencies concerning cost-avoidance waivers may stem from the lack of
        documentation maintained by certain States and CMS regional offices. Eight regional offices
        reported that at least one State in their region had a waiver. However, only three of the eight
        regions had a comprehensive set of documentation that supported the existence of the waivers.
        These three offices were able to provide both the waiver requests and the regional response for
        the 36 different waivers currently in place in their regions. The other 5 regions reported that they
        had approved a total of 37 cost-avoidance waivers. For two-thirds (25) of the 37 waivers,
        these 5 regional offices were unable to provide documentation supporting their existence. For
        only 4 of the 37 waivers were the regional offices able to provide documentation showing that
        the waiver had actually been approved. For five waivers, the only documentation on file was the
        waiver request letter from the State. In another three instances, the regional office had
        documentation faxed in from the State prior to our interview.




        CMS Oversight of Waivers                        6                                       OEI-03-00-00031
CMS approved cost-avoidance waiver requests that did not
address the criteria for proving cost-effectiveness

    Federal regulations (42 CFR § 433.138) require that for a waiver request to be approved by
    CMS, a State must show that the pay-and-chase method is as cost-effective as the cost-
    avoidance method. The State Medicaid Manual provides several examples of factors that may
    be used to determine cost-effectiveness, including average-cost-per-claim, denial rates of claims,
    administrative costs, and equipment/computer costs. We requested that CMS regional offices
    provide the documentation for any current waivers. As previously mentioned, some CMS
    regional offices were unable to provide any documentation for a number of the waivers. We
    reviewed all of the recent waiver requests provided to us. There were 51 waiver requests
    submitted by 18 States from 7 different regions. If a State provided any comparison of the costs
    of performing pay and chase to the costs of performing cost avoidance, we considered that
    request to have addressed the approval criteria. However, our review found that six of the
    seven CMS regional offices approved waivers that did not address this criteria.

    CMS approved 46 of the 51 cost-avoidance waiver requests that we reviewed. For 20 of these
    requests, States did not, as required, compare the cost-effectiveness of pay and chase to that of
    cost avoidance. In some of these cases, States provided data, such as the costs associated with
    performing pay and chase or the amount recovered through pay-and-chase efforts, but did not
    show how this data compared with any costs associated with performing cost avoidance. In
    other cases, States did not provide any financial data at all on pay and chase or cost avoidance,
    yet their waiver requests were still approved by CMS. Requests sometimes focused on
    provider issues (e.g., cost avoidance would drive providers out of business) and beneficiary
    issues (e.g., cost avoidance may reduce beneficiary access to care) instead of cost-effectiveness.

    Of the five waiver requests that were denied by CMS, only one was due to a failure to prove
    cost-effectiveness. Three of the requests were denied because the services were not generally
    covered by third parties; a fourth request was denied because beneficiaries eligible for the
    services had typically exhausted any third-party coverage. In these cases, CMS stated that
    waivers would create an unnecessary administrative burden for both the State and CMS.

    In addition, unlike other regional offices, one CMS regional office is not requiring States to
    renew cost-avoidance waivers every 3 years as required by the State Medicaid Manual. The
    eight States in this region are not required to submit updated data supporting the cost-
    effectiveness of a waiver. Therefore, the data used to justify cost-avoidance waivers for States
    in this region could potentially be years out-of-date.




     CMS Oversight of Waivers                   7                                         OEI-03-00-00031
CMS does not require States to report the data necessary to
determine the cost-effectiveness of cost-avoidance waivers

        While CMS requires the reporting of actual recovery amounts on the CMS-64, it does not
        require States to track the amounts they attempted to recover or the amounts validly denied by
        third parties. “Validly denied” refers to claims where the third party was found not to be liable
        for the amounts that the State attempted to recover. Keeping an accurate account of this type of
        financial information is necessary in order to evaluate the cost-effectiveness of both pay-and-
        chase and cost-avoidance efforts. This is especially true for States with cost-avoidance waivers,
        where tracking the recovery rate of outstanding payments from third parties is of primary
        importance in determining the cost-effectiveness of the waivers.

        As part of our survey, we asked States to identify the amount they attempted to recover, the
        amount actually recovered, and the amount validly denied by third parties in 2000. Of the 34
        States that had cost-avoidance waivers (according to CMS), 17 did not report attempted
        recoveries or validly denied figures to us. Several of these States indicated that they were
        unable to determine these amounts, while other States simply provided no response. Without
        this data, we believe it would be difficult for CMS to make informed decisions concerning the
        cost-effectiveness of waivers.

        Another 17 States with cost-avoidance waivers did report attempted recovery, actual recovery,
        and validly denied amounts to us. Figures reported by three of the 17 States indicated no
        outstanding debts owed by liable third parties. However, 14 of the 17 States had $307 million
        in outstanding payments potentially owed by liable third parties in Federal fiscal year 2000.
        These 14 States identified $1.33 billion in potential recoveries from liable third parties.
        According to these States, $262 million of the $1.33 billion was actually recovered, and another
        $761 million was validly denied by third parties. The remaining $307 million is considered to be
        a potential outstanding debt because the money was neither recovered by the State nor validly
        denied by the third party.1 This money has been paid out by the Medicaid program, yet the
        dollars associated with these claims have not been returned to the Federal government and the
        States.




          1
           It is important to note that all of the outstanding debt may not be attributable to services covered by a
cost-avoidance waiver. Because States are statutorily required to pay and chase for certain types of services (e.g.,
preventive pediatric care), it is possible that portions of the outstanding debt stem from these services.

         CMS Oversight of Waivers                               8                                                      OEI-03-00-00031
                         RECOMMENDATIONS
      Our findings show that CMS is not exercising effective oversight of the cost-avoidance waiver
      process. Because of the significant program dollars potentially at risk, we believe that proper
      oversight is critical.

      CMS and the States were not in agreement as to whether certain States were operating under
      approved waivers. The inconsistent responses may stem from the lack of documentation
      maintained by certain States and CMS regional offices. If regional offices are unsure of which
      States in their area even have cost-avoidance waivers, proper oversight would be difficult. In
      addition, many waivers were granted by CMS despite the fact that cost-effectiveness was not
      sufficiently addressed. According to Federal regulation, cost-effectiveness is the sole criteria for
      a regional office to use when evaluating a waiver request.

      Furthermore, while CMS requires the reporting of actual recovery amounts on the CMS-64, it
      does not require States to track the amounts they attempted to recover or the amounts validly
      denied by third parties. We believe that keeping an accurate account of this information is
      necessary in order to evaluate the cost-effectiveness of both pay-and-chase and cost-avoidance
      efforts. This is especially true for States with cost-avoidance waivers, where tracking the
      recovery rate of outstanding payments from third parties is of primary importance in determining
      the cost-effectiveness of the waivers. The fact that 14 States with waivers are potentially owed
      as much as $307 million by liable third parties leads us to question whether their waivers are
      truly cost-effective.

      We understand that waivers provide Medicaid agencies with the flexibility to design effective
      programs for their individual States. We also recognize that CMS has taken steps to review
      their guidance of the waiver process. However, based on our findings, we believe that CMS
      needs to provide more effective oversight of the cost-avoidance waiver process.

We recommend that:

CMS improve its oversight of the cost-avoidance waiver process by:

      •	       Approving only waivers that meet the criteria for cost-effectiveness set forth by Federal
               regulation

      •	       Ensuring that States abide by the State Medicaid Manual’s requirement that waivers be
               renewed every 3 years

      •        Requiring regional offices to retain proper documentation for all waivers




      CMS Oversight of Waivers                     9                                          OEI-03-00-00031
CMS require States to track the amount of money they attempt to recover from
third parties and the amount that is validly denied to assist in evaluating the cost-
effectiveness of both pay-and-chase and cost-avoidance efforts


Agency Comments

      CMS concurs with our recommendation that the agency should improve its oversight of
      the cost-avoidance waiver process. CMS also concurs with our recommendation that States
      should track the amount they attempt to recover from third parties and the amount that is validly
      denied. However, CMS added that requiring States to track these amounts would produce little
      additional information of value, while at the same time taking away needed resources regarding
      the implementation of Health Insurance Portability and Accounting Act (HIPAA) requirements.
      With the implementation of HIPAA electronic billing standards, CMS believes providers will be
      able to bill liable third parties more easily, thereby reducing Medicaid third-party recovery
      activities. CMS says that they will reassess the need to track the amount States attempt to
      recover from third parties and the amount that is validly denied within a few years of HIPAA
      implementation.

      In addition, CMS believes that our potential outstanding debt calculation may be significantly less
      than what is stated in our report. CMS noted that it is difficult to actually quantify the dollars at
      risk since there are many factors that affect this calculation. For instance, States “cast a wide net
      when seeking recoveries” because they do not always know if individuals have third-party
      insurance coverage nor do they know the extent of coverage. As a result, some third parties are
      not liable for the claims or liable for only a portion of the claim. In addition, States often do not
      receive responses from third parties regarding pursued claims.

      The full text of CMS’s comments is presented in Appendix B.


OIG Response

      In terms of our potential outstanding debt calculation, we simply based our calculation on figures
      reported to us by States. We recognize the fact that States may be pursuing dollars that in the
      end are not owed by third parties. For this reason, we use the phrase “as much as” when
      referring to the potential outstanding debt estimate. Both the States and CMS would have a
      more accurate picture of the amount owed to the States if CMS were to implement our
      recommendation that States track the amount they attempt to recover from third parties and the
      amount that is validly denied. These data would assist CMS in determining the cost-
      effectiveness of cost-avoidance waivers. Furthermore, we believe that non-responses from third
      parties should not be a factor when calculating how much money is owed to the State. The
      State’s entitlement to recovery does not change if a liable third party has not responded to the
      State’s request for recovery.




      CMS Oversight of Waivers                    10                                          OEI-03-00-00031
                                                                                   APPENDIX A




      States with Cost-Avoidance Waivers as of December 2001


The table below presents the cost-avoidance waivers approved for States based on information from
CMS regional offices.



      Region     State    Type of Service

        II        NJ      Intermediate Care Facilities for the Mentally Retarded
                          Part B Services at State and County Hospitals
        III       DC      Pharmacy
                  DE      Pharmacy
                  MD      Pharmacy
                  VA      Pharmacy
                  WV      Pharmacy a
        IV        AL      Pharmacy
                  FL      Pharmacy
                  GA      Pharmacy a
                  KY      Pharmacy
                  MS      Pharmacy
                  NC      Pharmacy
                  SC      Part B Physician Crossovers
                          Pharmacy
                 TN       Pharmacy a
        V        IL       Pharmacy a
                  IN      Pharmacy
                 MN       Pharmacy a
                 OH       Pharmacy a
                 WI       Pharmacy b
        VI       LA       Pharmacy
                 OK       Pharmacy
                 TX       Pharmacy
                          Long-term Care a
        VII        IA     Pharmacy
                  KS      Community Mental Health a
                          Long-term Care a
                          Personal Care a
                          Pharmacy a
                  MO      Adult Day Health Care c
                          Care for Mentally Retarded/Developmentally Disabled
                          Non-Emergency Transportation
                          Personal Care
                          Pharmacy
                          Respite Care
                  NE      Long-term Care
                          Pharmacy
                          Private Duty Nursing


       CMS Oversight of Waivers                        11                                OEI-03-00-00031
                                                                                           APPENDIX A



   Region      State    Type of Service

     VIII       MT    Audiology
                      Dental
                      Home and Community-Based Waiver Services
                      Non-Emergency Transportation

                      Nursing Homes

                      Oxygen and Oxygen-related Services in Nursing Homes

                      Optometry

                      Personal Care
                      Pharmacy
              ND      Pharmacy Claims under $100
              SD      Dental
                      Optometry
                      Pharmacy
              UT      Home and Community-Based Waiver Services
                      Long-term Care
                      Non-emergency Transport
                      Pharmacy
                      Tort
              WY      Care for Adults with Developmental Disabilities d
                      Care for Children with Developmental Disabilities
       X      AK      Accommodations e
                      Eyewear
                      Home and Community-Based Waiver Services
                      Personal Care
                      Pharmacy
                      Transportation
               ID     Nursing Homes a
                      Pharmacy a
              OR      Intermediate Care Facilities for the Mentally Retarded a
                      Institutes for the Mentally Diseased a
                      Pharmacy
                      School-based Rehabilitation Services a
                      Targeted Case Management for Children in Foster Care a
                      Targeted Case Management for the Developmentally Disabled a
Source: CMS Regional Offices

     a
       While CMS reports the State has a waiver for this service type, the State reports it does not.
     b
       State reports it also has a waiver for its birth-to-three program and school disability program.
     c
       State reports it also has a waiver for Department of Mental Health annual evaluation.
     d
       State reports it also has a waiver for pharmacy claims and a waiver for long-term care/home and
       community-based services for the disabled and elderly. Documentation from CMS shows that these
      waivers have expired.
     e
       State reports it also has a waiver for dental claims. Documentation from CMS shows that the dental
       waiver request had expired.




     CMS Oversight of Waivers                            12                                                 OEI-03-00-00031
                                          APPENDIX B


 Centers for Medicare & Medicaid Services’s Comments





CMS Oversight of Waivers   13                     OEI-03-00-00031
                                APPENDIX B




CMS Oversight of Waivers   14         OEI-03-00-00031
                                APPENDIX B




CMS Oversight of Waivers   15         OEI-03-00-00031
                           ACKNOWLEDGMENTS

This report was prepared under the direction of Robert A. Vito, Regional Inspector General for
Evaluation and Inspections in Philadelphia, and Linda M. Ragone, Deputy Regional Inspector General.
Other principal Office of Evaluation and Inspections staff who contributed include:

David Tawes, Team Leader                                     Linda Frisch, Program Specialist
Tanaz Dutia, Program Analyst

We would also like to acknowledge the following OEI staff for their assistance in this project:

Christopher Gould, Region I

Vincent Grieber, Region II

Peggy Daniel, Region IV

Josiah Townsel, Region IV

Joseph Penkrot, Region V

Nancy Juhn, Region VI

Tricia Fields, Region VII

Christopher Tarbell, Region IX





        CMS Oversight of Waivers                 16                                      OEI-03-00-00031
